No. 19A185
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES FISH AND WILDLIFE SERVICE, AND
NATIONAL MARINE FISHERIES SERVICE, APPLICANTS
v.
SIERRA CLUB, INC.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
APPLICATION FOR A FURTHER EXTENSION OF TIME WITHIN WHICH TO FILE A
PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT, via email and first-class mail, postage prepaid, this
17th day of September, 2019.
[See Attached Service List]

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 17, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of your
brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

SERVICE LIST
Reed W. Super, Esq.
SUPER LAW GROUP, LLC
180 Maiden Lane
Suite 603
New York, NY 10038
212-242-2355
reed@superlawgroup.com

